                                     FEDERAL COMMUNICATIONS COMMISSION



                                       OFFICE OF THE
                                    INSPECTOR GENERAL
                                     Semiannual Report to Congress


                                    April 1, 2008 - September 30, 2008


Federal Communications Commission
Office of the Inspector General




445 12th St., SW                                 Kent R. Nilsson
Washington DC 20554
www.FCC.gov/OIG                                Inspector General
                                                                  Report Fraud, Waste or Abuse to:
                                                                                                        Email
                                                                                                        Hotline@FCC.gov

                                                                                                        Call Hotline:
                                                                                                        202.418.0473 or
                                                                                                        888.863.2244




                                                                                                        www.FCC.gov
         The Federal Communications Commission
                        (left to right)
                                                                  You are always welcome to write or visit.
   Deborah Taylor Tate, Commissioner; Michael J. Copps,
Commissioner; Kevin J. Martin, Chairman; Jonathan S. Adelstein,   Office of Inspector General
    Commissioner; Robert M. McDowell, Commissioner                Federal Communications Commission
                                                                  Portals II Building
                                                                  445 12th St., S.W. Room 2-C762
OFFICE OF INSPECTOR GENERAL
                                                           memorandum
MEMORANDUM

DATE:		        October 31, 2008

REPLY TO
ATTN OF:	      Inspector General

SUBJECT:	      Semiannual Report

TO:		          Chairman, Federal Communications Commission


In accordance with Section 5 of the Inspector General Act, as amended, 5 U.S.C. App. 3 § 5, I have attached my
report summarizing the activities and accomplishments of the Office of the Inspector General (“OIG”) during
the six-month period ending September 30, 2008. In accordance with Section 5(b) of that Act, it would be ap-
preciated if this report, along with any associated report that you prepare as Chairman of the Federal Communi-
cations Commission (“FCC”), were forwarded to the appropriate Congressional oversight committees within 30
days of your receipt of this report.

During this reporting period, OIG activity focused most intensively on investigations, audits and Universal Ser-
vice Fund (“USF”) oversight. This report describes audits that are in process, as well as those that have been
completed during the preceding six months. OIG investigative personnel continued to address issues referred
to, or initiated by, this office. Where appropriate, investigative and audit reports have been forwarded to the
Commission’s management for action.

Information developed during this reporting period, including the initial results from the second round of USF
audits, indicates that closer scrutiny of USAC’s management, processes, controls and self-improvement efforts
is needed. Closer co-ordination by USAC with the FCC’s Managing Director and the Chief of the FCC’s Wire-
line Competition Bureau should improve remediation and transparency and facilitate further improvements in
the administration of USAC’s programs. Similarly, closer co-ordination by NECA’s management with
the FCC’s Managing Director and with the Chief of the Consumer and Governmental Affairs Bureau should
improve the operation of the Commission’s Telecommunications Relay and Video Relay Services program.

This office remains committed to maintaining the highest possible standards of professionalism and quality in
its audits, investigations, inspections and consultations and we welcome any comments or suggestions that you
might have. Please let me know if you have any questions or comments.




								                                                    Kent R. Nilsson
								                                                    Inspector General

Enclosure
cc: FCC Chief of Staff
    FCC Managing Director
                                                        Memorandum to Chairman, Federal Communications Commission
              Table of Contents
                 Introduction                                       3


                 OIG Management Activities                          5


                        Office Staffing                             6


                        Office Modernization                        7


                        Internship Program                          8


                        Legislative and Policy Matters              8


                 Audit Activities                                  11


                        Financial Audits                           12


                        Performance Audits                         14


                        Universal Service Fund (USF) Oversight     17


                 Investigations                                    27


                        Activity During this Period                29


                        Significant Investigation Case Summaries   30


                        OIG Hotline                                36


                 Reporting Requirements of the                     39
                 Inspector General Act
                                                                   40
                        Section 5(a)

                        OIG Reports with Questioned Costs          42

                        OIG Reports with Recommendations that
                        Funds Be Put To Better Use                 43


Table of Contents - September 2008   2
                                                       Introduction
The   Federal    Communications       Commission       The Office of the Inspector General (“OIG”) is

(“FCC”) is an independent regulatory agency,           dedicated to ensuring compliance with the re-

with authority delegated by Congress to regu-          quirements of the Inspectors’ General Act and

late interstate and foreign communications by          assisting the Chairman in his continuing efforts

radio, television, wire, satellite and cable. The      to improve the effectiveness and efficiency of the

FCC’s jurisdiction covers the fifty states, the Dis-   Federal Communications Commission. The In-

trict of Columbia, the Commonwealth of Puerto          spector General (“IG”), Kent R. Nilsson, reports

Rico and all U.S. territories.                         directly to the Chairman. The IG’s staff consists

                                                       of accountants, attorneys, auditors, economists,

The FCC consists of a Chairman and four Com-           and investigators. Principal assistants to the IG

missioners, who are appointed by the President         are: David L. Hunt, Assistant Inspector Gener-

and confirmed by the United States Senate.             al (“AIG”) for Investigations/General Counsel;

Kevin J. Martin serves as Chairman. Michael J.         Curtis Hagan, AIG for Audits; William K. Ga-

Copps, Jonathan S. Adelstein, Deborah Taylor           ray, AIG for Universal Service Fund Oversight;

Tate and Robert M. McDowell serve as Commis-           Thomas Cline, AIG for Policy and Planning; and

sioners. Most of the FCC’s employees are locat-        Harold Shrewsberry, AIG for Management.

ed in Washington, D.C. at the Portals II building,

which is located at 445 12th St., S.W., Washing-       This semiannual report includes the major ac-

ton, D.C. Field offices and resident agents are        complishments and activities of the OIG from

located throughout the United States.                  April 1, 2008 through September 30, 2008, as

                                                       well as information on the IG’s goals and future

                                                       plans.




                                                                        Introduction - September 2008       3
Did you know?
 FCC Commissioners and staff
  will visit over 100 places
   before 2/17/08 to discuss the
     DTV transition.
OIG Management
    Activities
       OFFICE staffing

    office modernization

    internship program

 legislative & Policy matters
              OIG Management Activities
             Office Staffing                           period, the IG has hired six new employees and

                                                       selected an additional five that will start over the

Additional personnel, as well as funding to sup-       next five weeks. Candidates are still being inter-

port the work of the Office of Inspector General       viewed and that process will continue until the IG

(“OIG,” or “Office”), are essential to meeting the     has reached the level of staffing required to effec-

objectives of the Inspector General Act and fulfill-   tively perform the USF oversight mission. These

ing the responsibilities of the Inspector General      new four year term employees more than double

(“IG”) that are contained in section 0.13 of the       the size of the IG’s current staffing level. In ad-

Commission’s rules. So far, it has been possible       dition to hiring USF funded term employees, the

to make progress because of the willingness of         IG has added two full time equivalent employees.

the Chairman and his staff to support the work         The IG continues to support the Federal Com-

of this Office.   The Office is now comprised of       munications Commission intern program and is

29 professionals, three support personnel and          hiring one full time intern and one half-time in-

two interns. With each addition, the professional      tern to fulfill critical administrative functions as-

training, experience and personal commitment           sociated with an expanding staff and workload.

to improving the administration of the Commis-

sion’s programs and eliminating fraud, waste and       Our professional staff consists of well-trained,

abuse has increased. Additional personnel are          seasoned professionals, most of whom have one

being added to meet the increasing demands that        or more professional certifications. We support

are being placed on this Office as the Commis-         their efforts to expand their bodies of knowledge

sion’s programs increase in size and complexity.       and professional recognition, and the Chairman

                                                       has funded examination preparation for the Certi-

The IG has been interviewing and selecting can-        fied Public Accountant and Certified Information

didates for management, attorney, auditor, and         System Security Professional designations as well

investigator positions authorized by the FY2008        as other professional training programs. In our

budget for the Universal Service Fund (“USF”)          continuing efforts to increase the expertise of our

oversight mission. Within the current reporting        audits and investigative staffs, members of this


6   OIG Management Activities - September 2008
              OIG Management Activities
Office have also attended classes at the Inspector    will be able to address the oversight activity an-

General Criminal Investigative Academy, other         ticipated for the Universal Service Fund, as well

Federal Inspectors General training programs, as financial statements and information technol-

master’s level classes at colleges and universi-      ogy audits of the FCC and its external program

ties, and other training programs. In addition,       segments, financial controls audits of the FCC and

we have leveraged our expertise in accounting         its external program segments, and a steadily in-

and auditing to revitalize the FCC’s professional creasing volume of complex investigations. As

training for the Commission’s Certified Public        noted above, the IG received funding that was

Accountants, thereby contributing to improving        approved by the Commission, the President and

the quality of professional education available to    Congress to improve the OIG’s Universal Service

all of the Commission’s accountants. During this Fund oversight mission. These funds are provid-

reporting period, Sophila Jones, Robert McGriff, ing the IG with resources to increase the num-

and Sharon Spencer were awarded the Certified         ber of auditors and investigators performing this

Government Financial Management designation. critical mission. The OIG has been purchasing

                                                      software and information technology equip-

Subsequent to this reporting period, the USF over-    ment     that   will   aid   auditors   and   investi-

sight auditing team led by Bill Garay, AIG for Uni-   gators     in    accomplishing      their     mission.

versal Service Fund Oversight, received the Exec-

utive Council on Integrity and Efficiency’s presti-   We continue to implement the Knowledge Man-

gious Excellence in Auditing Award for USF audit-     agement System discussed in previous semian-

ing work performed during this reporting period.      nual reports. This new system will increase the

The award was presented to the team on October 21. OIG’s ability to manage audits, investigation

                                                      case files, documents, reporting data and project

       Office Modernization                           tracking activities while coordinating hundreds

                                                      of audits and related investigations. Information

We reported in the past that the IG had decided gathered during the fiscal year 2007/2008 audits

to modernize the Office to insure that the OIG        of the USF disbursements for FY 2006 provided


                                                         OIG Management Activities - September 2008       7
             OIG Management Activities
information that will further assist in the devel-   fall, spring and summer semesters. Most of these

opment and implementation of the system and          students take their internships for credit.     Re-

thereafter allow the system to move to full opera-   cent interns have come from schools across the

tion. The OIG Knowledge Management System country including American University, Arizona

will also provide a “real time” overview of audit    State University, DePauw University, George-

and investigation status and project milestones. town University, Hamilton College, James Madi-

Additionally, we have procured global positioning son University, Marymount College, Long Island

system devices for auditors and investigators to use University, North Carolina State University, Pur-

when performing field operations and the addition    due University, the University of California at

of inexpensive portable scanners will enable audi-   Berkeley, the University of California at Davis,

tors and investigations to immediately transmit      the University of Maryland Law School, the Uni-

data to the OIG Knowledge Management System for      versity of North Carolina, and Xavier University.

use by other personnel.

                                                     These internships have proven to be rewarding

The IG is physically relocating the OIG to ac-       experiences for all participants. Students leave

commodate the new hire expansion.        This re-    with a good understanding of how a govern-

location will take place over the next several       ment agency operates, and they have the oppor-

months and ultimately provide the IG with a          tunity to encounter challenges while enjoying the

centralized controlled office environment that       rewards that can come from public service. In

is somewhat isolated from other FCC offices.         turn, the Office has benefited from the students’

The IG’s goal is, eventually, to preclude other      excellent work performance that, in part, has re-

personnel from unauthorized entry into the           flected their youth, exuberance, and special skills.

OIG to protect sensitive data and information.

.                                                                   Legislative &
        Internship program                                        Policy matters


The OIG welcomes college interns during the          Pursuant to section 4(a)(2) of the Inspector Gen-


8   OIG Management Activities - September 2008
               OIG Management Activities
eral Act of 1978 (IG Act), 5 U.S.C.A. App. 3 § 4(a) OIG and the FCC. The Office also monitored leg-

(2) as amended, our Office monitors and reviews islation and legislatively related proposals that

existing and proposed legislation and regulatory         may, directly or indirectly, affect the ability of IGs

proposals for their potential impact on the OIG          to function independently and objectively. We

and the FCC’s programs and operations. Spe-              continued to monitor the Inspector General Re-

cifically, we perform this activity to evaluate the      form Act of 2008 (H.R. 928). In addition to legisla-

potential of legislative initiatives for encourag-       tion, the OIG continuously monitors FCC policy

ing economy and efficiency while helping to re-          development and provides input as appropriate.

duce fraud, waste, abuse, and mismanagement.

During this reporting period, the Office monitored

legislative activities affecting the activities of the




                                 FCC Headquarters Building
                                    Portals II Building


                                                            OIG Management Activities - September 2008       9
Did you
know?
 Since 2004, OIG has
 recommended nearly
  $85 million in recov-
   eries in audits of the
    USF.
 audit Activities

        financial audits

      performance audits

universal service fund oversight
              audit activities
                                         financial audits


Financial statement audits provide reasonable as-      auditing standards issued by the Comptroller

surance as to whether the agency’s financial state-    General of the United States (“GAGAS”). Under

ments are presented fairly in all material respects.   the direction of the Office of Inspector General,

Other objectives of financial statement audits are     Clifton Gunderson LLP, an independent certified

to provide an assessment of the internal controls      public accounting firm, is performing the audit of

over transaction processing for accurate financial     FCC’s FY 2008 consolidated financial statements.

reporting and an assessment of compliance with         The audit is being performed in accordance with

applicable laws and regulations.                       GAGAS, OMB Bulletin 07-04 as amended, and

                                                       applicable sections of the U.S. Government Ac-

 Audit of the Federal Communications                   countability Office (GAO)/President’s Council

 Commission Fiscal Year 2008 Consoli-                  on Integrity & Efficiency (PCIE) Financial Audit

        dated Financial Statements                     Manual.



In accordance with the Accountability of Tax Dol-      This audit is currently in progress.

lars Act of 2002, the Federal Communications

Commission (FCC) prepared consolidated finan-                    Oversight of USAC’s 2007
cial statements for the 2008 fiscal year in accor-               Financial Statement Audit
dance with Office of Management and Budget

(OMB) Circular A-136, Financial Reporting Re-          The OIG performed oversight of the Universal

quirements, and subjected them to audit. The           Service Administrative Company’s (“USAC”)

Chief Financial Officers Act of 1990 (“CFO Act”),      2007 Financial Statement Audit and Agreed-Up-

as amended, requires the FCC Inspector General         on Procedures related to USAC operations. Sec-

(IG), or an independent external auditor selected      tion 54.717 of the Commission’s rules requires

by the Inspector General, to audit the FCC finan-      USAC, the Universal Service Fund Administrator,

cial statements in accordance with government          to obtain an annual audit that examines its opera-



12   Audit Activities - September 2008
                                             audit activities
                                      financial audits


tions and books of account to determine whether      that USAC take corrective action to ensure that the

the USAC is properly administering the univer-       most recent historical trend data is utilized when

sal service support mechanisms to prevent fraud      calculating the ADA for USF receivables. The re-

waste and abuse. In response to this requirement,    port also noted a significant deficiency in USAC’s

USAC, in consultation with the Office of Inspector   accounting for fixed assets.    The PwC recom-

General, contracted with PriceWaterhouseCoo-         mended that USAC implement corrective action

pers LLP (“PwC”) to perform an audit of USAC’s       to ensure that an accurate fixed assets subsidiary

2007 Financial Statements and to perform Agreed-     ledger is maintained throughout the year.

upon Procedures established by USAC and FCC.

                                                     The Agreed-Upon Procedures (AUP) for the year

The 2007 USAC financial statement audit was per-     ended December 31, 2007 performed by PwC was

formed in accordance with Government Auditing        conducted in accordance with attestation stan-

Standards issued by the Comptroller General of       dards established by the American Institute of

the United States. PwC issued an unqualified         Certified Public Accountants. The procedures in-

opinion on USAC’s financial statements and is-       cluded a review of USAC’s administration of the

sued a report on Internal Controls over Financial    USF program, corporate governance, USAC’s in-

Reporting and on Compliance and Other Matters.       formation technology environment, and a review

The report on Internal Controls over Financial       of select activities of the High Cost, Low Income,

Reporting and Compliance and Other Matters           Rural Healthcare and Schools and Libraries Sup-

identified two weaknesses in internal controls       port Mechanisms. The auditors noted several ex-

over financial reporting that need to be remedied.   ceptions during the performance of the AUP. The

PwC reported that a material weakness existed in     FCC has directed USAC to develop corrective ac-

USAC’s accounting for the allowance for doubt-       tions to address each of the AUP exceptions noted

ful accounts (“ADA”) for the USF receivable ac-      by PwC.

counts. In this regard, the auditors recommended



                                                                  Audit Activities - September 2008   13
              audit activities
                                  Performance audits

             Performance Audits                        increased over the next six years to $38 million in

                                                       1999. The TRS Fund has increased approximately

Performance audits are systematic examinations         50-80% each year since then to reach $637 million

that are conducted to assess the performance of        for the TRS Fund’s fiscal year from July, 2007 to

a government program, activity, or function so         June, 2008. In the current fiscal year, from July,

that corrective action can be taken, if appropriate.   2008 to June, 2009, the size of the TRS Fund is pro-

Performance audits include audits of government        jected to grow to $805 million. This is an increase

contracts and grants with private sector organiza-     of 26% from the previous fiscal year

tions, as well as government and non-profit or-

ganizations that determine compliance with con-        During this reporting period, an Independent

tractual terms, Federal Acquisition Regulations        Public Accountant (“IPA”) under contract to the

(“FAR”), and internal contractual administration.      Office of Inspector General (“OIG”) completed

                                                       performance audits of seven TRS providers who

     Telecommunications Relay Service                  collectively received approximately 15 percent

                                                       of TRS payments made between 2006 and 2007.

The Telecommunications Relay Service (“TRS”)           The IPA was unable to complete the audit of the

Fund compensates communication service pro-            eighth provider because that provider did not

viders for the costs of providing interstate tele-     supply the IPA with information that validated

phone transmission services that enables a person      the accuracy of the TRS costs and minutes of ser-

with hearing, or speech disabilities to use such       vice billed to, and received from, the TRS fund by

services to communicate with a person without          that provider.

hearing or speech disabilities. Distributions from

the fund have grown substantially in recent years      The audits were conducted to determine whether

which has increased the risk of fraud and im-          the Relay Service Data Requests and the monthly

proper payments. The fund’s initial annual allot-      reports of relay service minutes that were certified

ment for disbursements was $30.8 million, which        and submitted by the TRS providers were: (i) in


14   Audit Activities - September 2008
                                             audit activities
                                  Performance audits

compliance with applicable laws and regulations;     eration and administration of the TRS program

and (ii) supported by sufficient documentation to    by the National Exchange Carrier Association,

warrant reimbursement with federal funds.            Inc. Finally, with a compensable rate of at least

                                                     $376.11 per reportable hour for VRS services (the

The worked performed by the IPA found that TRS       maximum hourly rate is $404.17) and a median

providers’ processes for accumulating and re-        rate of pay for a VRS interpreter of $ 17.79 per

porting minutes of services provided and related     hour (as of October 29, 2008), there would appear

costs were not always adequate. This resulted in     to be approximately $358.32 or more of gross

some TRS providers being paid for unallowable        margin per reportable hour to cover the other

minutes of service from the TRS Fund.                costs associated with the provision of VRS tele-

                                                     communications services. That hourly margin,

The audit work also concluded that methodolo-        when compared with the costs of broadband ser-

gies used by the TRS providers for accumulating      vices, suggests that the FCC needs to look much

and reporting minutes of services provided and       more closely into the allowable expenses and the

related costs were not uniform. This increased       capital costs that underlie the cost projections that

the risk that unreasonable, unallowable, unnec-      VRS providers submit to the FCC in setting the

essary and inaccurate costs were considered in       rates that VRS providers receive per allowable

the rate used to reimburse providers from the        minute of reported service. Management initiat-

TRS fund. These risks could result in rapid cost     ed a broad examination into ways for improving

growth and require higher funding rates. Man-        the management, administration, and oversight

agement has taken steps to strengthen oversight      of the TRS Fund and should consider adopting

of the TRS Fund. However, additional policies        additional, and more effective, cost controls.

are needed to establish cost standards in order to

control costs, and stronger sanctions are needed

to combat fraud and abuse. Also, more effective

internal controls are needed to improve the op-


                                                                   Audit Activities - September 2008   15
               audit activities
                                   PERFORMANCE audits

     Review of Processes for Filing Public          In accordance with the Federal Information Se-

       Comments, Consumer Inquiries                 curity Management Act (“FISMA”), the indepen-

                  and Complaints                    dent certified public accounting firm of Clifton

                                                    Gunderson, L.L.P. (“CG-LLP”) was engaged to

 In providing service to the public, the FCC re-    perform the annual evaluation of the FCC’s in-

 ceives comments and reply comments in FCC          formation security programs and practices. CG-

 proceedings and provides informal mediation        LLP tested the effectiveness of security controls

 and resolution of consumer inquiries and com-      for a subset of the Commission’s systems and the

 plaints. During this reporting period, KPMG        FCC’s privacy management. CG-LLP reported

 LLP, under contract to the OIG, completed its      on September 12, 2008 that the FCC has an es-

 assessment of the effectiveness of FCC controls    tablished information security program and has

 that were in place for processing the filing of    been reviewing security controls and identifying

 public comments, consumer inquiries and com-       areas to strengthen this program. Nonetheless,

 plaints. This review concluded that although       there were findings for which corrective action

 the FCC has taken several steps to improve these   was recommended that relate to information

 processes, additional improvements are needed.     security administration, logical access controls,

 FCC management agreed with the findings and        application software development and change

 recommendations in part, while noting that the     controls, continuity of operations controls, and

 FCC has made significant improvements in this      contractor monitoring and oversight. None of

 area and continues its work in developing addi-    the weaknesses, either individually or collec-

 tional improvements.                               tively, were deemed to be a significant deficiency

                                                    as that term has been defined by OMB reporting

     Fiscal Year 2008 Federal Information           instructions for FISMA reviews (Memorandum

     Security Management Act Evaluation             M-08-21). FCC management generally concurred

              and Risk Assessment                   with the recommendations and stated that it is

                                                    committed to continually strengthening the in-


16    Audit Activities - September 2008
                                             audit activities
                     Universal Service Fund (USF) oversight

ternal controls of the Commission.                  is committed to continually strengthening the IT

                                                    investment and project management processes at

     Assessment of FCC Information                  the Commission.

    Technology Project Management
                                                                    USF Oversight
Total Systems Technologies Corporation (“TSTC”),

under contract to the OIG, performed an indepen-    In the last semiannual report, dated April 30, 2008,

dent assessment of Information Technology Proj-     we provided an update on the oversight activi-

ect Management (“ITPM”) at the FCC. As part of      ties of the USF program including Rounds 1 and

this assessment, TSTC base-lined current project    2 of attestation engagements of USF beneficiaries.

management practices against government ma-         This report provides updates to those efforts as

turity models/standards and identified areas for    well as progress on Round 3 audits.

improvement.       In performing this assessment,

TSTC also identified key project management         The Office of Inspector General continues to over-

components affecting project performance and        see a Universal Service Administrative Company

examined FCC performance factors, measures,         (“USAC”) administered effort to perform attes-

and metrics in relation to their correlation with   tation engagements of the USF program benefi-

project success.    TSTC provided recommenda-       ciaries. USAC entered into contracts with twelve

tions to improve performance on different types     public accounting (audit) firms to perform these

of FCC information technology (“IT”) projects as    engagements. Attestation audits are being per-

well as overall information technology project      formed to comply with the Improper Payment

management. TSTC concluded that the Office of       Information Act of 2002 (Public Law No. 107-300)

Managing Director, as an organization, has tak-     (“IPIA”) and Generally Accepted Government

en positive steps in developing an ITPM frame-      Auditing Standards. IPIA implementation is a

work.   FCC management generally concurred

with TSTC’s recommendations and stated that it


                                                                 Audit Activities - September 2008   17
              audit activities
                       Universal Service Fund (USF) oversight

component of the President’s Management Agen-         •	     Low Income Program

da which is directed to reducing erroneous pay-       •	     Rural Health Care Program

ments in the federal government. Agencies are re-

quired to review all programs and activities they     Additionally, attestation engagements of con-

administer and identify those which may be sus-       tributors to the USF were performed.

ceptible to significant erroneous payments. IPIA

defines significant erroneous payments as annual      Results from Round 1 are provided in the IG’s

erroneous payments in any federal program that        October 3, 2007 reports. Briefly, those results in-

exceeds both 2.5 percent of program payments          dicated that the High Cost, School and Libraries,

and $10 million.                                      and Low Income programs are at risk based on

                                                      IPIA criteria. Results of the audits of contribu-

These attestation engagements also address our        tors indicate room for improvement in the man-

obligation to comply with the Inspector General       agement of this contribution revenue.

Act of 1978, as amended which, in relevant part,

charges Inspectors’ General with the responsibil-     Based on Round 1 results, we proceeded to again

ity for developing measures to detect and prevent     perform audits (“Round 2 audits”) but only on

fraud, waste, and abuse in federal government         two USF funding categories, Schools and Librar-

programs.                                             ies and High Cost. Based on random statistical

                                                      sampling we selected 260 Schools and Librar-

For Rounds 1, 2, and 3 we used statistical sampling   ies Program and 390 High Cost Program ben-

techniques to provide the number and identity of      eficiaries. These attestation engagements were

beneficiaries subject to attest audits. Round 1 at-   performed by 12 public accounting firms under

testation engagements of the four USF support         contract with USAC with oversight by the OIG.

programs were completed. They were:

                                                      The improper payment (IPIA) data results from

•	     High Cost Program                              Round 2 have been delivered by the audit firms.

•	     Schools and Libraries Program                  Field work on 649 of the 650 Round 2 attest audit

18   Audit Activities - September 2008
                                              audit activities
                  Universal Service Fund (USF) oversight

reports have been submitted to USAC for qual-         Round 3 efforts.

ity review and approval. The preliminary statis-

tical analysis of improper payments by the OIG        For the Round 3 attestation efforts we have, or will

determined that Schools and Libraries and High        shortly effect, a number of changes to improve

Cost Programs will again exceed the IPIA thresh-      efficiency and effectiveness. We are hiring to in-

olds and are considered at risk programs. As a        crease our professional auditing staff from 5 to 18.

result, OIG performed additional stratified statis-   This will improve our ability to directly oversee

tical samples of beneficiaries in the Schools and     audit activity, especially in the field where audit

Libraries and High Cost Programs resulting in a       activity critical to the quality of information gath-

third round (“Round 3”) of attestation engage-        ered occurs. We plan to increase our field pres-

ments. USAC is in process of contracting for the      ence by 200% over Round 2. We hired a subject

audit services to conduct Round 3.                    matter expert in the High Cost Program to better

                                                      assess and recommend solutions to USF program

In Round 3, we intend to return to auditing on        challenges.

all four USF support programs as well as contri-

butions. At this point, we have developed the         We revamped the program to train audit firms.

sample size and identified the beneficiaries of the   This new training program is audit focused and,

High Cost and Schools and Libraries Funds to be       in particular, emphasizes lessons learned, gen-

attest audited.                                       erally accepted government auditing standards,

                                                      American Institute of Certified Public Accoun-

The results from Round 1 and the preliminary re-      tants Statement on Standards for Attestation En-

sults from Round 2 have not lessened our concern      gagements, and effective auditing methods and

about the possibilities for fraud, waste, and abuse   techniques.

in the Commission’s USF programs as adminis-

tered by USAC. As a result, OIG has enhanced          Working with the telecommunications industry

the quality of its oversight of the USF programs      and state associations, we have begun workshops

including the attestation engagements of the          to educate beneficiaries directly regarding the

                                                                    Audit Activities - September 2008   19
              audit activities
                        Universal Service Fund (USF) oversight

High Cost Program and the attestation examina-          tified improper payments totaling $363,000d at

tion process. Our purpose is to reduce the num-         eight of those locations (see Table II for details).

ber of attest findings, thereby reducing the error      Also, USAC has identified preliminary poten-

rate and erroneous payments. With the addition          tial funding recoveries totaling $597,000 at nine

of audit personnel, it also became possible to insti-   schools and libraries beneficiaries. Please see

tute procedures to followup on findings resulting       Table III below for details.

from all attestation engagements. This will allow

us to improve the audit process from the perspec-       These statistical analyses of the USF programs

tives of efficiency, timeliness and effectiveness.      and targeted attestation engagements will im-

                                                        prove the application of investigative and audit

As stated in the last Semiannual Report, Round 1,       resources and yield information to the Commis-

which consisted of 459 attestation engagements,         sion that will enable it to improve the admin-

was completed except for 48 of the 90 contributor       istration of these programs and further reduce

attestation engagements. As of this reporting pe-       fraud, waste and abuse.

riod, all audit reports including the 48 remaining

contributor reports are complete. Details on those               Support to Investigations
contributor audits with recommended funds for

recovery of $1.5 million are contained in Table         In addition to the audit component of our over-

I.   Further, as reported above, IPIA data results      sight program, we have provided, and continue

from Round 2 have been delivered by the audit           to provide, audit and investigative support to

firms and USAC is in the process of determining         United States Department of Justice investiga-

potential recoveries of USF funds from those au-        tions of E-rate and High Cost fund recipients.

dits. Several of those audits have been subject-        To implement the investigative component of

ed to USAC’s quality assurance process and are          this effort, we developed a working relationship

near finalization. As of the end of the reporting       with the Antitrust Division of the Department

period, the audit firms have reported on an ad-         of Justice (“DOJ”). The Antitrust Division, in

ditional 12 high cost fund beneficiaries and iden-      (continued on page 24)

20   Audit Activities - September 2008
                                          audit activities
                  TABLE I: USF Audits Finalized during SAR Reporting Period
               Universal Service Fund (USF) oversight
                                                   USAC
                                                        Expected
                                                                          Board        Headquarters
Carrier Name                              Filer ID #   Contribution
                                                                       Approval of         State
                                                         Change
                                                                          Audit
South Carolina RSA #2 Cellular             818464                  $0    6/6/2008           AR
Waterloo Cedar Falls CellTelCo             802752              $4,191    6/6/2008           IL
American Telesis                           821260             $43,119    6/6/2008           SC
Denton Telecom                             822850                  $0    6/6/2008           TX
Ellington Telephone                        805692                  $0    6/6/2008          MO
Madison River Communications               820646            $354,336    6/6/2008           LA
Mobilfone Service Inc                      820284                  $0    6/6/2008          WV
N Touch Communications                     824594                  $0    6/6/2008           TN
Navajo Tribal Utility                      825696                  $0    6/6/2008           AZ
New Hope Telephone Cooperative             805623                  $0    6/6/2008           AL
Ocala Communication                        825636                  $0    6/6/2008           FL
Peoples Telephone                          803007             $22,573    6/6/2008           TX
Pine Belt Cellular                         811304                $313    6/6/2008           AL
Pine Belt Telephone                        801888                  $0    6/6/2008           AL
Pine Island Telephone Company              801924                  $0    6/6/2008          MN
Platte Valley Communications of Kearney    815420                  $0    6/6/2008           NE
Qtel LLC                                   824346                  $0    6/6/2008           NY
Redwood County Telephone Company           807708             $17,606    6/6/2008          MN
Roadrunner Communications                  821692                  $0    6/6/2008          MN
SJI Networks Company                       824766                $859    6/6/2008           LA
Skyriver Communications                    825150                  $0    6/6/2008           CA
Teleplex Coin Communications               812821                  $0    6/6/2008           NY
The Golden Belt Telephone Association      801084             $27,968    6/6/2008           KS
Vanco Direct USA                           825393                  $0    6/6/2008           IL
Vision Net Inc                             816972                  $0    6/6/2008           MT
Waitsfield Fayston Telephone               803463                  $0    6/6/2008           VT
Walnut Hill Telephone Company              802509              $9,870    6/6/2008           AR
Wynn Communications Group                  806880                  $0    6/6/2008           NC
Lone Star PCS                              825691                  $0    6/6/2008           TX
CTE Telecom LLC                            822888            $903,450    6/6/2008           CT
Fayetteville MSA                           806222                  $0    6/6/2008           AR
Forte Communications Inc                   821068                  $0    6/6/2008           IL
Gemini Companies Inc                       817662                  $0    6/6/2008          MN
Hargray Inc                                821672                $436    6/6/2008           SC
Main Street Telephone Company              823582                  $0    6/6/2008           PA
Nexband Communications                     815916                  $0    6/6/2008           MS
Next Gen Telephone                         819863             $37,025    6/6/2008           NY
North English                              801033      These statistical
                                                                   $0    analyses
                                                                         6/6/2008 of the USFIA pro-
Ringsted Telephone Company                 803697                  $0    6/6/2008           IA
Scranton Telephone Company                 809630      grams and targeted
                                                                   $0      attestation engagements
                                                                         6/6/2008           IA
Softswitch Communications                  822994                  $0    6/6/2008           TX
South Canaan Long Distance                 814765      will im     $0    6/6/2008           PA
Telchin Corp                               825660                  $0    6/6/2008           FL
Think 12 Corp                              824312                  $0    6/6/2008           IL
Uni-Tel of Farmington                      815156              $3,083    6/6/2008          NM
Wantel Inc                                 822642             $56,952    6/6/2008           OR
Western Wahkiakum County Tel               802254                  $0    6/6/2008           WA
One Eighty Communications                  821850             $64,788    9/9/2008           OR
TOTAL Contribution Potential Recovery                     $1,546,569                          
                                                              Audit Activities - September 2008   21
              audit activities
           Table II: USF Round 2 High Cost Audits through the Quality Assurance Process
                           during this Semi-Annual Report Reporting Period
                                                                        Total Estimated Improper
Assignment Number                          Beneficiary
                                                                                 Payment
HC-2007-082              Iowa Rsa No. 2 Limited Partnership                                  $94,521
HC-2007-086              Nebraska Tech. & Telecommunications, Inc.                           $13,107
HC-2007-090              North Central Rsa 2 Of North Dakota LP                                   $0
HC-2007-092              Northwest Dakota Cellular Of North Dakota                         $249,021
                         LP
HC-2007-171              Barnes City Cooperative Telephone Company                                $0
HC-2007-176              Cedar County Pcs, LLC                                                $2,229
HC-2007-182              Rcc Minnesota                                                            $0
HC-2007-183              Rcc Minnesota, Inc.                                                      $0
HC-2007-184              Rcc Minnesota, Inc.                                                     $52
HC-2007-185              Rcc Minnesota, Inc                                                      $30
HC-2007-187              Sei Wireless LLC                                                     $1,385
HC-2007-191              Virginia Cellular LLC                                                   $33
TOTAL Estimated Improper Payments                                                          $360,378
Total Estimated Improper Payment is as defined by the IPIA and does not necessarily reflect the
projected recovery amount. USAC could not provide a preliminary recommended recovery amount
in time for inclusion in this report.
        TABLE III: USF Round 2 Schools and Libraries Audits through the Quality Assurance Process
                           during this Semi-Annual Report Reporting Period
       Assignment Number                  Beneficiary                 USAC ProjectedRecovery Amount
          SL-2007-001        Brentwood Union Free Dist                                            $0
          SL-2007-005        Clarkstown Central School Dist                                       $0
          SL-2007-010        Etowah County School District                                        $0
          SL-2007-012            Franklin County School Dist                                             $0
          SL-2007-018            Hillside Children's Center School                                       $0
          SL-2007-023            Lowndes County School District                                          $0
          SL-2007-028            Okeechobee County School Dist                                      $84,110
          SL-2007-039            Talmud Torah Tzoin Yosef Pupa Inc.                                      $0
          SL-2007-041            Anoka-Hennepin School Dist 11                                           $0
          SL-2007-042            Ashe County School District                                        $90,675
          SL-2007-048            Hart Indep School District                                              $0
          SL-2007-049            Inter Lakes Coop School Dist                                            $0
          SL-2007-050            Iredell-Statesville Sch Dist                                            $0
          SL-2007-05             Kansas City Unif Sch Dist 500                                           $0
          SL-2007-053            Manhattan Unif School Dist 383                                          $0
          SL-2007-058            Minnetonka School District 276                                          $0
                                                                   Table II continued on the following page.

22   Audit Activities - September 2008
                                           audit activities
     TABLE III: USF Round 2 Schools and Libraries Audits through the Quality Assurance Process
                   during this Semi-Annual Report Reporting Period (continued)
   Assignment Number                      Beneficiary              USAC ProjectedRecovery Amount
      SL-2007-060          New Lexington City School Dist                                          $0
      SL-2007-063          Renwick Unif School Dist 267                                            $0
      SL-2007-064          Rippey Elementary2                                                  $1,209
      SL-2007-067          Shepherd School District 37                                             $0
      SL-2007-073          Wooster City School District                                            $0
      SL-2007-078          Monroe Twp Public Schools                                               $0
      SL-2007-084          Central Union High School Dist                                          $0
      SL-2007-086          Corcoran Jt. Unified School District                                    $0
      SL-2007-091          Woodlake Union High Sch Dist                                            $0
      SL-2007-105          Groesbeck Indep School Dist                                         $6,500
      SL-2007-111          Lexington County Public Library                                         $0
      SL-2007-124          Texas School For The Blind                                              $0
      SL-2007-128          Aldine Indep School District                                            $0
      SL-2007-130           Arlington Public School Dist                                     $41,019
      SL-2007-131          Azusa Unified School District                                           $0
      SL-2007-132          Baltimore City School District                                          $0
      SL-2007-138          Butler County School District                                     $67,100
      SL-2007-139          Chattooga County School Dist                                      $18,541
      SL-2007-145          Clinton Indep School Dist 99                                            $0
      SL-2007-148          Columbus County School Dist                                             $0
      SL-2007-156          East Cleveland City Sch Dist                                            $0
      SL-2007-158          Emmett School District 221                                              $0
      SL-2007-162          Fort Bend Indep School Dist                                             $0
      SL-2007-166          Gaston County School District                                           $0
      SL-2007-173          Hamden Public School District                                           $0
      SL-2007-175          Hobbs Municipal School Dist                                             $0
      SL-2007-180          Incarnation Elementary School                                           $0
      SL-2007-182          Jackson County School District                                    $58,835
      SL-2007-186          Katy Indep School District                                              $0
      SL-2007-192          La Salle Parish School Dist                                      $229,138
      SL-2007-194          Lancaster School District                                               $0
      SL-2007-202          Miami-Dade County Public Schools                                        $0
      SL-2007-206          Msd Lawrence Township                                                   $0
      SL-2007-211          Northridge Local S D-Dayton                                             $0
      SL-2007-219          Pascagoula School District                                              $0
      SL-2007-223          Portsmouth Public Library                                               $0
      SL-2007-232          Schenectady City School Dist                                            $0
      SL-2007-244          Thomasville City School Dist                                            $0
TOTAL USAC Projected Recovery Amount                                                        $597,127

                                                                Audit Activities - September 2008   23
              audit activities
                      Universal Service Fund (USF) oversight

(continued from page 20)                             was communicated concerning USAC’s sense of

turn, has established a task force to conduct        limited accountability to, and lack of effective and

USF investigations that is comprised of attor-       candid communications with, the FCC.         Those

neys in each of the Antitrust Division’s seven       assessments have also been communicated sepa-

field offices and the National Criminal Of-          rately to USAC’s Acting Chief Executive Officer.

fice. As of the end of this reporting period,        And, although the FCC’s Managing Director di-

we are directly supporting 31 investigations         rected USAC to take steps to improve its manage-

and monitoring an additional 8 investigations.       ment and to operate in a more efficient and ef-

Please refer to the Investigations section of this   fective manner (e.g., initiating a customer service

report for further information.                      program and website portal, requiring USAC to

                                                     provide recommendations that USAC could take

           USAC Management                           to prevent improper payments (including re-

                                                     source requirements and associated costs)), it has

The Inspector General met with USAC’s Act-           become increasingly apparent that a sharper fo-

ing Chief Executive Officer and explained his        cus on USAC’s administrative processes, internal

concerns with respect to USAC’s operations           controls and management will be necessary.

and responsiveness, as well as the size, train-

ing and competence of its workforce. Similar         Accordingly, the OIG contracted with auditing

or related concerns have been expressed by           firms to assess and evaluate the operations of

the FCC’s Chief of the Wireline Competition          USAC’s management, staff, and Board of Direc-

Bureau, the FCC’s Office of Managing Direc-          tors subcommittees that oversee the High Cost

tor and the Inspector General to the Chairman        and Low Income Programs and the Schools and

of USAC’s Board of Directors and at regular          Libraries Program during this reporting period.

quarterly meetings with the Executive Com-           The Inspector General also initiated an audit of

mittee of the USAC Board of Directors.               USAC’s travel and professional services expens-

                                                     es.

During those meetings, additional concern

24   Audit Activities - September 2008
audit activities




       Audit Activities - September 2008   25
Did you
know?
 OIG’s investigative staff
 has grown from two in
  January 2006 to 14 as of
   September 30, 2008.
Investigations

 ACTIVITY DURING THIS PERIOD

significant INVESTIGATIVE CASE
          SUMMARIES

         OIG HOTLINE
              investigations
     Federal Communications Commission (FCC)              tial investigation. In addition, investigations

     Office of Inspector General (OIG) investiga-         may develop from OIG audits or inspections

     tions are frequently initiated on the basis of al-   that discover evidence or indications of fraud,

     legations of employee misbehavior, violations        waste, abuse, misconduct, corruption, or mis-

     of federal law or FCC regulations or other           management of FCC programs or operational

     forms of fraud, waste or abuse. These inves-         segments.

     tigations often address allegations of fraud in

     FCC programs, such as the Spectrum Auction           After receiving an allegation, the Assistant In-

     and Federal Universal Service Programs, or           spector General for Investigations (AIGI) or one

     other criminal activity or misconduct within         of his staff will conduct a preliminary review of

     the FCC or its programs. We also receive com-        the matter to determine if an investigation or

     plaints regarding the manner in which the FCC        referral is warranted.   Sometimes serious al-

     executes its programs, how the FCC handles its       legations may merit attention, but are outside

     operations administratively, and how the FCC         the jurisdiction of the OIG. These allegations

     conducts its oversight responsibilities.             would be referred to the appropriate entity,

                                                          usually another office or bureau in the FCC or

     Allegations come from all sources. FCC man-          another federal or law enforcement agency, for

     agers, employees, contractors, and other stake-      review and response to the complainant. As

     holders often contact the OIG directly with          much as possible, the OIG continues to be in-

     concerns about fraud, waste or abuse. Indi-          volved and serve as a facilitator for complaints

     viduals call or e-mail the OIG Hotline, or send      that are outside the jurisdiction of this office.

     complaints through the United States mail.           The OIG, like most government offices, has an

     These allegations can be, and frequently are,        ever-increasing volume of work and dedicated

     made anonymously. Other government agen-             but limited resources. Therefore, allegations

     cies, federal, state and local, including the Gov-   of matters within the jurisdiction of the OIG

     ernment Accountability Office, the Office of         are reviewed for assignment and priority in a

     Special Counsel, and congressional and senato-       “triage” method. Matters that have the poten-

     rial offices, refer matters to the OIG for poten-    tial to significantly impact federal funds, im-

28   Investigations - September 2008
                                                   investigations
portant FCC missions or programs, or the basic          The AIGI and his staff also work with other agen-

integrity and working of the agency receive the         cies, including the U.S. Department of Justice, to

highest priority for investigation and assignment       support their criminal and civil investigations

of resources.                                           and prosecutions relating to FCC missions and

                                                        programs. Many of these investigations and pros-

The OIG works not only on a large number of in-         ecutions involve fraud pertaining to the federal

vestigations, but a large variety of investigations.    Universal Service Program, sometimes referred to

We deal with complex cyber crime investigations,        as the Universal Service Fund or USF. One of the

cases involving large criminal conspiracies, and        USF programs that benefits schools and libraries

on matters throughout the United States and ter-        across the nation, often know as the E-Rate Pro-

ritories. These complex and wide-ranging cases          gram, has been a prime target for fraud but has

often require substantial investigative expertise       also been the focus of joint and coordinated in-

and resources that the OIG itself does not have,        vestigation and prosecution efforts by the Depart-

which can include needing personnel on the              ment of Justice and the FCC and its OIG. Those

ground across several states or high-grade foren-       efforts have now resulted in a history of success-

sic tools and the expertise to use them. In these       ful prosecutions and indictments, and of restitu-

cases, we have always received, and are grateful        tion for such fraud to the USF.

for, the assistance of other agencies, especially in-

cluding the OIG of other federal agencies. For ex-              Activity During This Period
ample, in one matter the Office of Inspector Gen-

eral for the United States Postal Service obtained      At the outset of this reporting period, eighty (80)

evidence for our office by using his criminal in-       cases were pending. Thirty-six (36) of those cases

vestigators. This cooperative and coordinated ef-       involve the Commission’s Universal Service Fund

fort saved this office valuable time and expense        (“USF”) program and have been referred to the

by not having to send our agents out in the field       Federal Bureau of Investigation (“FBI”) and/or

where other inspector general criminal investiga-       the U.S. Department of Justice. An additional

tors were already located.                              twenty-one (21) non-USF and six (6) USF related

                                                        complaints were received during the current re-

                                                                       Investigations - September 2008   29
               investigations
porting period. Over the last six months, thirteen      During this period, Chairman Kevin Martin re-

(13) cases, three (3) USF and ten (10) non-USF re-      quested an investigation into allegations that an

lated, have been closed. As a consequence, a to-        entity, Cyren Call Communications Corporation

tal of ninety-four (94) cases are pending, of which     (“Cyren Call”), discouraged potential bidders

thirty-nine (39) relate to the USF program. The         from participating in the Commission’s 700 MHz

OIG continues to monitor, coordinate and/or sup-        D Block Auction (“Auction 73”) by discussing

port activities regarding those thirty-nine (39)        with potential bidders a lease payment that any

investigations. The investigations pertaining to        eventual D Block winning bidder would have

the pending fifty-five (55) non-USF cases are on-       to pay to the Public Safety Broadband Licensee

going.                                                  (“PSBL”). Auction 73 closed on March 18, 2008,

                                                        with a record $19.6 billion in bids. The D Block,
                    Statistics
                                                        the commercial spectrum made available for a
     Cases Pending as of
                                          80            public/private partnership to create a nationwide
     April 1, 2008
     New Cases                            27            public safety network, received only one early

     Cases Closed                         13            round bid, from Qualcomm Incorporated, which
     Cases Pending as of                                was significantly lower than the $1.33 billion re-
                                          94
     September 30, 2008
                                                        serve price. The OIG’s report of investigation ul-

                                                        timately concluded that there were many factors

         Significant Case Summaries                     that turned potential bidders away from partici-

                                                        pating in Auction 73 and the lease payment issue

Several of the most recent efforts of this office are   was only one of those factors.

described below. There are, however, many other

matters that, due to their sensitive nature or re-      On March 20, 2008, Chairman Martin asked the

lated investigations, cannot be included.               Inspector General to investigate the allegations in

                                                        several online wireless newspapers and “blogs”

     Phase I of the OIG’s Investigation into the        and included in a March 19, 2008 letter to the

             700 MHz D Block Auction                    Chairman from Harold Feld, Senior Vice Presi-

                                                        dent of the Media Access Project (“MAP”) and a

30    Investigations - September 2008
                                                  investigations
representative of the Public Interest Spectrum Co-     post-auction down payment deadline. The rule is

alition (“PISC”). PISC, through Mr. Feld’s letter,     intended to foster a level playing field and ensure

specifically asked that the Commission investi-        that the government receives a fair market price

gate the allegations regarding “a purported meet-      for spectrum.) The lease payment was discussed

ing between Frontline Wireless (“Frontline”), its      as an estimated amount that was included in the

financial backers, and Morgan O’Brien of Cyren         PSST business plan, but it was clear that the actual

Call that may have had the effect of preventing        number would result from negotiations after the

Frontline from attracting needed capital and dis-      auction. Frontline, as well as other entities inter-

couraging other bidders.”                              viewed, stated that the lease payment amount was

                                                       only one of many factors it considered in deciding

The OIG investigative team interviewed offi-           whether to participate in the D Block. Witnesses

cials from the FCC, Public Safety Spectrum Trust       from all of the entities interviewed also described

(“PSST,” holder of the PSBL), Cyren Call, Mr. Feld,    a host of problems and concerns with the D Block

and representatives of potential D Block bidders       that, as a whole, deterred their participation in

including AT&T, Frontline, Qualcomm, and Veri-         the D Block.

zon Wireless (“Verizon”).

                                                       On April 25, 2008, the OIG reported the results

The investigation determined that Cyren Call of-       of its D Block investigation, concluding that the

ficials met with Frontline and Verizon to discuss      evidence established that the lease payment dis-

an estimated spectrum lease payment amount of          cussed at Cyren Call’s meetings with Verizon and

$50 to $55 million (amount varied depending on         Frontline was not the only factor in the poten-

the interviewee) per year for a period of ten years.   tial bidders’ decisions not to bid on the D Block.

All of these meetings took place prior to the “Qui-    Rather, the investigation established that the un-

et Period,” when the FCC auction anti-collusion        certainties and risks associated with the D Block,

rule was in effect. (The anti-collusion rule prohib-   including, but not limited to, the negotiation

its FCC auction applicants from communicating          framework with PSST, the potential for default

their bids or bidding strategies with each other       payment if negotiations failed, and the costs of

from the short-form application deadline to the        the build-out and the operations of the network,

                                                                      Investigations - September 2008   31
                investigations
taken together, deterred potential bidders from       issues that could affect the subject matter of the

bidding on the D Block.                               requested investigation, including the rules being

                                                      examined in the Commission’s D Block rulemak-

Subsequently, on May 14, 2008, the Commis-            ing noted above, are still being resolved.

sion re-opened the rulemaking pertaining to the

D Block rules to examine various issues, includ-       FTC v. Neovi, Inc., d/b/a Neovi Data Corpora-

ing the issue of spectrum lease payments to the                   tion and Qchex.com, et al.

PSBL.

                                                      During this period, the OIG supported the Fed-

     Phase II of the OIG’s Investigation into the     eral Trade Commission (“FTC”) in the matter of

             700 MHz D Block Auction                  FTC v. Neovi, Inc., d/b/a Neovi Data Corporation

                                                      and Qchex.com, et al., a case before the United

On May 23, 2008, the U.S. House of Representa-        States District Court for the Southern District of

tives’ Committee on Energy and Commerce (the          California. Defendants marketed a series of soft-

“Committee”) requested that the Inspector Gen-        ware programs that operated under the Qchex.

eral investigate whether the relationship between     com website. Users of the software could enter

Cyren Call and PSST was consistent with the           check and bank account information and use the

Commission rule that prohibited entities from         site to send checks to third parties via email or the

holding commercials interests in the PSBL, and        United States Postal Service. Qchex customers

prohibited commercial interests from participat-      provided only raw data that defendants convert-

ing in the management of the PSBL. The Commit-        ed into negotiable instruments by taking the data

tee asked the IG to consider whether the parties’     and composing a check document that matched

existing relationship is consistent with the rule,    U.S. banking regulations when printed.

and also whether “any future, post-auction plans

by Cyren Call...including any plans to create or      From the outset the Qchex “system” was manipu-

be involved with a mobile virtual network opera-      lated by fraudulent individuals who requested

tor...would violate the [rule’s] prohibition.” This   checks without having authority over the bank

investigation remains on-going because many           account upon which it was to be drawn. The FTC

32    Investigations - September 2008
                                                     investigations
alleged that the defendants assisted these indi-     investigation has been completed, the FCC OIG in-

viduals by failing to take adequate measures to      vestigation into this matter has been closed.

verify that they had actual authority over the

bank accounts they stated belonged to them.                Media Bureau Procedures Regarding

Defendants started receiving complaints about                         NCE FM Stations

the fraudulent use of their system from the out-

set. According to the defendant’s database, from     During this period, the OIG initiated an inquiry

2000 to 2006 nearly 155,000 checks from 13,770       into a procedure followed by the Media Bureau re-

Qchex accounts were frozen for fraudulent ac-        garding the handling of applications for the right to

tivity. In time, this included 186 federal, state,   make changes to, or to operate, new non-commercial

and local law enforcement agencies.                  educational (“NCE”) FM stations. Applicants who

                                                     sought to make minor modifications, i.e., not ma-

On September 16, 2008, the court granted the         jor or new applications, complained that they were

FTC’s Motion for Summary Judgment, in part.          unnecessarily inconvenienced and their positions

That motion sought an injunction that, in part:      made vulnerable by not having early access to the

(1) prohibited defendants from creating and          NCE band proposals. The NCE band proposals are

delivering checks without adopting reasonable        not made public until weeks after the filing period

verification procedures; (2) restrained defen-       ends. Applications for minor modifications can be

dants from failing to respond to consumer com-       made at any time, but must not interfere with the

plaints; (3) prohibited defendants from failing      broadcast contour integrity in earlier applications.

to protect consumers’ private financial account      By not having access to the new or major applica-

information; (4) ordered defendants to disgorge      tions, those filing for minor applications argued

$535,358; and (5) ordered defendants to comply       that they had to file in an information vacuum and

with monitoring and reporting requirements.          “guess” at the location and dimensions of the NCE

The Court will determine the remedy after the        applicants so as to not create a conflict with them.

filing of supplemental briefs.                       The OIG concluded that, while the Media Bureau

                                                     articulated legitimate reasons for proceeding as it

Because the role of this office in the joint Qchex   did, this office will make recommendations to help

                                                                      Investigations - September 2008   33
               investigations
devise a system that will better address the needs

of the regulated community.

                                                        Recent USF E-Rate Fraud Prosecution Successes

        United States v. Eldon Anderson

                                                        The USF program that benefits schools and librar-

During this period, the OIG supported the De-           ies across the nation is often called the E-Rate Pro-

partment of Justice in a criminal prosecution of        gram. As noted above, that program has been a

Eldon Anderson. Mr. Anderson was indicted on            prime target for fraud but has also been the focus

14 counts of securities fraud and 12 counts of mail     of joint and coordinated federal investigation and

fraud for selling unregistered securities. He en-       prosecution efforts by the U.S. Department of Jus-

tered into a plea agreement on March 28, 2008,          tice and the FCC and its OIG. Those interagency

and is awaiting sentencing. He faces between 6½         efforts have resulted in a history of successful

to 8 years in federal prison, and has been ordered      prosecutions and indictments, and of restitution

to pay full restitution for his fraudulent securities   for such fraud to the USF. Several of the most re-

scheme.                                                 cent successes in that effort are described below.



          Consolidated Database System                        Illegally Influencing a Grand Jury –

                                                                  the William Coleman Matter

During this period, the OIG initiated an inquiry

into allegations that the Media Bureau’s Consoli-       In September 2008, William Coleman, the former

dated Database System (“CDBS”) was flawed.              Deputy Superintendent and Chief Operating Of-

CDBS is the licensing application software sys-         ficer of Dallas Independent School District, was

tem that the Media Bureau has made available for        sentenced to one year of probation and a $5,000

public filings since 2000. Because remedial efforts     fine for trying to influence a grand jury that was

regarding this system were already underway,            investigating a bribery and money laundering

OIG noted the alleged flaws to the Office of Man-       scheme in the Dallas Independent School District.

aging Director and may test the new system once         Bribery and money laundering charges against the

it is publicly available.                               former Dallas school administrator were dropped

34   Investigations - September 2008
                                                  investigations
in exchange for his guilty plea in May 2008.            rounds of golf, meals, trips and dozens of deep-

                                                        sea outings on two sport-fishing boats that the

      Mail Fraud – the Fort Berthold Indian             technology director christened Sir Veza I and II.

                Reservation Matter                      The jury found that the individuals should for-

                                                        feit $1.2 million as the proceeds for their crimes.

In September 2008, Global Networking Technol-           Sentencing is scheduled for October, 2008 with

ogy, Inc., of Gurnee, Illinois, and Computer Train-     both individuals facing a maximum of 10 years

ing and Associates, Inc., of North Chicago, Illinois,   in prison and a $250,000 fine for each bribery

through corporation representatives Tyrone Pipkin       count and 20 years and a $500,000 fine for the

and Gloria Harper, plead guilty to mail fraud and       money laundering charge.

agreed to pay $241,000 in restitution for allegedly

using a North Dakota school district on the Fort           Conspiracy -- the Douglas and Mary Jo

Berthold Indian Reservation to defraud the E-rate                       LaDuron Matter

program.

                                                        In April 2008, Leonard Douglas “Doug” La-

     Dallas Independent School District and             Duron and his mother, Mary Jo LaDuron, aka

         Micro Systems Engineering, Inc.                Mary Jo Gault, were indicted in the U.S. District

                                                        Court in Kansas City, Kansas, for participating

In July 2008, a federal jury convicted Ruben B. Bohu-   in a conspiracy to defraud the E-Rate program.

chot, the former Dallas Independent School Dis-         Doug LaDuron, former owner of Serious ISP

trict technology director, on 13 counts and Frankie     Inc., Myco Technologies Inc., and Elephantine

Wong, president of Micro Systems Engineering,           Corporation, carried out the alleged conspiracy

Inc., on 10 counts involving offenses related to the    by submitting false statements and concealing

operation of bribery, conspiracy, and money laun-       material facts from the administrators of the E-

dering schemes involving technology contracts.          Rate program. The indictment also alleges Mary

Federal prosecutors presented evidence that the for-    Jo LaDuron fraudulently represented herself as

mer technology director steered two multimillion-       an independent consultant, and steered E-Rate

dollar contracts to the vendor in return for cash,      contracts to companies owned by her son as well

                                                                     Investigations - September 2008    35
              investigations
as to co-conspirators, Benjamin Rowner and Jay
                                                    for Atlanta Public Schools. Arthur Scott pleaded
H. Soled.
                                                    guilty to conspiracy and bribery charges in May
        Concealing Material Facts – the
                                                    2007, and testified at trial against Harris. Sentenc-
                DeltaNet Matter
                                                    ing is scheduled for October 2008 and Harris faces a

                                                    maximum sentence of 45 years in federal prison.
In April 2008, Benjamin Rowner and Jay H.

Soled, former owners of DeltaNet, a New Jer-
                                                                       OIG Hotline
sey computer service provider, plead guilty to

charges related to defrauding the E-Rate pro-
                                                    During this reporting period, the OIG Hotline tech-
gram. The pair conspired to defraud the E-Rate
                                                    nician received numerous calls to the published
program by submitting false statements and
                                                    hotline numbers of (202) 418-0473 and 1-888-863-
keeping important information from the admin-
                                                    2244 (toll free). The OIG Hotline continues to be
istrators of the program. The men have agreed
                                                    a vehicle by which Commission employees and
to cooperate with the U.S. Department of Jus-
                                                    parties external to the FCC can contact the OIG to
tice’s on-going investigation into E-Rate fraud.
                                                    speak with a trained Hotline technician. Callers

                                                    who have general questions or concerns not specifi-
       Bribery and Conspiracy -- the R.
                                                    cally related to the missions or functions of the OIG
               Clay Harris Matter
                                                    office are referred to the FCC Consumer Center at

                                                    1-888-225-5322. In addition, the OIG also refers
In July 2008, R. Clay Harris was found guilty by
                                                    calls that do not fall within its jurisdiction to other
a federal jury on charges of bribery and conspir-
                                                    entities, such as other FCC offices, federal agen-
ing to bribe Arthur Scott, the former Director of
                                                    cies and local or state governments. Examples of
Operational    Technology/Telecommunications
                                                    calls referred to the Consumer Center or other FCC
for Atlanta Public Schools. Harris was the Chief
                                                    offices include complaints pertaining to custom-
Executive Officer and majority owner of Mul-
                                                    ers’ phone service and local cable providers, long-
timedia Communications Services Corporation
                                                    distance carrier slamming, interference, or similar
while co-conspirator Scott was responsible for
                                                    matters within the program responsibility of other
managing and overseeing the E-Rate program
                                                    FCC bureaus and offices.

36   Investigations - September 2008
                                                      investigations
During this reporting period, we received 608 Hotline contacts, which resulted in OIG taking action on

21 of these. The remaining calls were forwarded to the other FCC bureaus and offices, primarily the

FCC Consumer Center (340 calls) and other federal agencies, primarily the Federal Trade Commission

(247 calls).1




                                    OIG Hotline Calls Record
                                 April 1, 2008 - September 30, 2008


                                     FCC OIG
                                       (21)


                  Other Federal                         FCC
                  Agencies (247)                  Bureaus/Offices
                                                       (340)



                                                                                          FCC Bureaus/Offices
                                                                                          Other Federal Agencies
                                                                                          FCC OIG




1	      In our previous semiannual report, we identified 72 Hotline calls as “awaiting disposition” at the end of
the reporting period. In fact, the disposition of those calls had been resolved during the prior reporting period
and they are not included in the statistics for this reporting period.

                                                                           Investigations - September 2008     37
  reporting requirements of the
      inspector general act

     Reporting Requirements
         of Section 5(a)

     table i: oig reports with
        questioned costs

    table II: oig reports with
recommendations that funds be put
          to better use
              reporting requirements
 The following summarizes the Office of Inspector General response to the 12 specific reporting re-
 quirements set forth in Section 5(a) of the Inspector General Act of 1978, as amended.

 1. A description of significant problems, abuses, and deficiencies relating to the administration of pro-
 grams and operations of such establishment disclosed by such activities during the reporting period.

 Please refer to the section of this report titled “Universal Service Fund” and the section of this report captioned
 “Telecommunications Relay Service.”

 2. A description of the recommendations for corrective action made by the Office during the reporting
 period with respect to significant problems, abused, or deficiencies identified pursuant to paragraph
 (1).

 Please refer to the section of this report titled “Universal Service Fund” section of this report captioned “Tele-
 communications Relay Service.”

 3. An identification of each significant recommendation described in previous semiannual reports on
 which corrective action has not yet been completed.

 No significant recommendations remain outstanding.

 4. A summary of matters referred to authorities, and the prosecutions and convictions which have
 resulted.

 Please refer to the section of this report entitled “Universal Service Fund” and the section of this report entitled
 “Investigations.”

 5. A summary of each report made to the head of the establishment under section (6) (b) (2) during
 the reporting period.

 No report was made to the Chairman of the FCC under section (6) (b) (2) during this reporting period.

 6. A listing, subdivided according to subject matter, of each audit report issued by the Office during
 the reporting period, and for each audit report, where applicable, the total dollar value of questioned
 costs (including a separate category for the dollar value of unsupported costs) and the dollar value of
 recommendations that funds be put to better use.

 Each audit report issued during the reporting period is listed according to subject matter and described in the
 “Audit Areas” section and in Tables I and II of this report.

 7. A summary of each particularly significant report.

 Each significant audit and investigative report issued during the reporting period is summarized within the
 audits and investigations sections and in Tables I and II of this report.

 8. Statistical tables showing the total number of audit reports with questioned costs and the total dol-

40   Reporting Requirements - September 2008
                       reporting requirements
lar value of questioned costs.

The required statistical table can be found at Table I to this report. See also the statistical estimates of erroneous
payments made in the “Universal Service Fund” section of this report.

9. Statistical tables showing the total number of audit reports with recommendations that funds be
put to better use and the total dollar value of such recommendations.

The required statistical table can be found at Table II to this report and in the section captioned “Universal Ser-
vice Fund.”

10. A summary of each audit report issued before the commencement of the reporting period for
which no management decision has been made by the end of the reporting period (including the date
and title of each such report), an explanation of the reasons why such a management decision has not
been made, and a statement concerning the desired timetable for achieving a management decision
on each such report.

No audit reports fall within this category.

11. A description and explanation of the reasons for any significant revised management decision
made during the reporting period.

No management decisions fall within this category.

12. Information concerning any significant management decision with which the Inspector General is
in disagreement.

No management decisions fall within this category.

13. Information described under section 05(b) of the Federal Financial Management Improvement Act
of 1996.

No reports with this information have been issued during this reporting period.




                                                                  Reporting Requirements - September 20078         41
              reporting requirements

             Table I: OIG Reports With Questioned Costs

                                                    Number of   Questioned   Unsupported
Inspector General Reports With Questioned Costs
                                                     Reports      Costs         Costs


A. For which no management decision has been
                                                        _            _            _
made by the commencement of the reporting period.

                                                                $1,546,569
B. Which were issued during the reporting period.      15                         _


C. For which a management decision was made
                                                       15                         _
during the reporting period.                                    $1,546,569


(i) Dollar value of disallowed costs                    _            _            _



(ii) Dollar value of costs not disallowed               _            _            _


D. For which no management decision has been
                                                        _            _            _
made by the end of the reporting period.


Reports for which no management decision was
                                                        _            _            _
made within six months of issuance.




42   Reporting Requirements - September 2008
                   reporting requirements

Table II: OIG Reports With Recommendations That Funds
                  Be Put To Better Use
Inspector General Reports With Recommendations
                                                     Number of Reports         Dollar Value
That Funds Be Put To Better Use


A. For which no management decision has been
                                                              _                      _
made by the commencement of the reporting period.


B. Which were issued during the reporting period.             _                      _


C. For which a management decision was made
                                                              _                      _
during the reporting period.


(i) Dollar value of disallowed costs                          _                      _


(ii) Dollar value of costs not disallowed                     _                      _



D. For which no management decision has been
                                                              _                      _
made by the end of the reporting period.


Reports for which no management decision was
                                                              _                      _
made within six months of issuance.




                                                    Reporting Requirements - September 20078   43
This page intentionally left blank.
                                                                  Report Fraud, Waste or Abuse to:
                                                                                                        Email
                                                                                                        Hotline@FCC.gov

                                                                                                        Call Hotline:
                                                                                                        202.418.0473 or
                                                                                                        888.863.2244




                                                                                                        www.FCC.gov
         The Federal Communications Commission
                        (left to right)
                                                                  You are always welcome to write or visit.
   Deborah Taylor Tate, Commissioner; Michael J. Copps,
Commissioner; Kevin J. Martin, Chairman; Jonathan S. Adelstein,   Office of Inspector General
    Commissioner; Robert M. McDowell, Commissioner                Federal Communications Commission
                                                                  Portals II Building
                                                                  445 12th St., S.W. Room 2-C762
                                     FEDERAL COMMUNICATIONS COMMISSION



                                       OFFICE OF THE
                                    INSPECTOR GENERAL
                                     Semiannual Report to Congress


                                    April 1, 2008 - September 30, 2008


Federal Communications Commission
Office of the Inspector General




445 12th St., SW                                 Kent R. Nilsson
Washington DC 20554
www.FCC.gov/OIG                                Inspector General
